U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Tyrone Felder v. United States of America
S.Ct. No. 21-5461
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 18,
2021, and placed on the docket on August 24, 2021. The government’s response is due on
September 23, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 25, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5461
FELDER, TYRONE
USA

BENJAMIN ADAM SILVERMAN
LAW OFFICE OF BENJAMIN ADAM
SILVERMAN, PLLC
224 WEST 30TH STREET
STE. 302
NEW YORK, NY 10001

